U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 16, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Alpine Securities Corporation v. Securities and Exchange Commission,
S.Ct. No. 21-82
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 19,
2021, and placed on the docket on July 21, 2021. The government’s response is due on August
20, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 20, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0082
ALPINE SECURITIES CORPORATION
SECURITIES AND EXCHANGE COMMISSION

BRENT R. BAKER
PARSONS, BEHLE & LATIMER
201 SOUTH MAIN STREET
SUITE 1800
SALT LAKE CITY, UT 84111
MARANDA E. FRITZ
MARANDA E. FRITZ PC
335 MADISON AVENUE
NEW YORK, NY 10017
ROBERT MARK LOEB
ORRICK, HERRINGTON & SUTCLIFFE
1152 15TH STREET, NW
WASHINGTON, DC 20005-1706
202-339-8400
RLOEB@ORRICK.COM
SEAN MAROTTA
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, NW
WASHINGTON, DC 20004
202-637-5600
SEAN.MAROTTA@HOGANLOVELLS.COM
RUSSELL G. RYAN
KING & SPALDING LLP
1700 PENNSYLVANIA AVE., NW
SUITE 200
WASHINGTON, DC 20006
202-661-7984
RRYAN@KSLAW.COM

